No.
IN THE SUPREME COURT OF THE UNITED STATES

PETITIONER

FAN GU
VS.

RESPONDENT(S)

INVISTA S.A.R.L
PROOF OF SERVICE

I, Fan Gu, do swear or declare that on this date, August 14,2021, as required by
Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO
PROCEED INFORMA PA UPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel,
and on every other person required to be served, by email or depositing an
envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery
to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows'
Shauna J. Clark
shauna.clark@nortonrosefulbright.com
Heather L. Sherrod
heather.sherrod@nortonrosefullbright.com
NORTON ROSE FULBRIGHT US LLP
1301 McKinney, Suite 5100
Houston, Texas 77010
I declare under penalty of perjury that the foregoing is true and correct.

r
Executed on August 14, 2021
31

No.

IN THE SUPREME COURT OF THE UNITED STATES

PETITIONER

FAN GU
VS.

RESPONDENT(S)

INVISTA S.A.R.L
PROOF OF SERVICE

I, Fan Gu, do swear or declare that on this date, August 14,2021, as required by
Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO
PROCEED INFORMA PAUPERIS
PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel,
and on every other person required to be served, by email or depositing an
envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery
to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Shauna J. Clark
shauna.clark@nortonrosefulbright.com
Heather L. Sherrod
heather.sherrod@nortonrosefullbright.com
NORTON ROSE FULBRIGHT US LLP
1301 McKinney, Suite 5100
Houston, Texas 77010
I declare under penalty of perjury that the foregoing is true and correct.
r-—‘

Executed on August 14, 2021
31

CERTIFICATE OF COMPLIANCE
This Petition for a writ of certiorari is 30 pages long, does not exceed 40
pages per Rule 33.2(b)

Fan Gu

32

